DOE/IG-0492




 INSPECTION                       INSPECTION OF
   REPORT                       DEPARTMENT OF ENERGY
                                 ACTIVITIES INVOLVING
                              BIOLOGICAL SELECT AGENTS




                                   FEBRUARY 2001




 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
    OFFICE OF INSPECTIONS
                             U.S. DEPARTMENT OF ENERGY
                                   Washington, DC 20585

                                        February 2, 2001




MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman /s/
                         Inspector General

SUBJECT:                 INFORMATION: Report on “Inspection of Department of
                         Energy Activities Involving Biological Select Agents”


BACKGROUND

The Department of Energy’s laboratories, including those managed by the National Nuclear Security
Administration, conduct research involving biological select agents and select agent materials (e.g.,
DNA or select agents and subunits of toxins derived from select agents). For example, the
laboratories are currently working to develop detection and response systems to improve
preparedness in the event of a domestic attack involving the use of a biological select agent as a
weapon of mass destruction. Biological select agents include about 40 viruses, bacteria, rickettsia,
fungi, and toxins whose transfer within the United States is controlled. This is because such agents
pose a substantial threat to public health and safety.

The objective of our inspection was to determine whether the Department has implemented
appropriate environment, safety, and health measures regarding the possession and use of biological
select agents and select agent materials. During our inspection, we issued four interim reports
regarding the Department’s biological select agent activities based on our determination that certain
issues warranted immediate management attention.

RESULTS OF INSPECTION

We concluded that the Department’s biological select agent activities lacked organization,
coordination, and direction. Specifically, the Department’s activities lacked appropriate Federal
oversight, consistent policy, and standardized implementing procedures, resulting in the potential for
greater risk to workers and possibly others from exposure to biological select agents and select agent
materials.
For example:

   •   Safety and security officials, as well as senior management officials, at the Department’s
       Albuquerque Operations Office (Albuquerque) were unaware of experiments involving
       biological select agents and select agent materials that were conducted at two Albuquerque
       laboratories.

   •   Some Department laboratories were not adhering to the Centers for Disease Control and
       Prevention (CDC) requirements in effect at the time of our review for registration of certain
       biological select agents and select agent materials.

   •   Procedures for conducting research activities involving biological select agents and select
       agent materials varied significantly among the Department’s laboratories. The Department
       had not developed “best practices” to provide minimum guidance to laboratories for the
       conduct of their biological activities.

   •   The Department faces potential liability issues relating to the work of its contractors with
       biological agents, including liability arising from potential exposure of contractor employees
       who decline recommended immunizations.

   •   The Department’s laboratories are not always receiving timely and consistent information
       regarding CDC registration requirements. This matter was coordinated with the Office of
       Inspector General at the U.S. Department of Health and Human Services.

While we consider these findings to be serious, we found no evidence that current activities had
adversely impacted the safety and health of the public or of the Department’s Federal or contractor
workforce.

Further, during the course of our review the Department took certain actions to improve biosafety
practices at its laboratories. For example, the Department of Energy Biosurety Working Group,
which was chartered on September 29, 2000, is considering revisions to current policies and
procedures governing potentially hazardous biological materials and select agents. Also, a biosurety
program was initiated at Albuquerque to strengthen local safety and security protocols. In addition,
CDC biological select agent registration requirements are being clarified, and communications
concerning biological research activities have reportedly improved among Department Headquarters,
the Operations Offices, the laboratories, and other Federal agencies. While these are positive steps,
the potential risks associated with the use of biological select agents warrant continued senior
management attention.

MANAGEMENT REACTION

The Department generally concurred with our recommendations and agreed to take corrective
actions.

Attachment
cc:   Under Secretary for Nuclear Security/Administrator for Nuclear Security
      Acting Assistant Secretary for Environment, Safety and Health
      Acting General Counsel
      Acting Director, Chemical and Biological National Security Program
INSPECTION OF DEPARTMENT OF ENERGY ACTIVITIES
INVOLVING BIOLOGICAL SELECT AGENTS


TABLE OF
CONTENTS



               OVERVIEW

               Introduction and Objective………………………………… 1

               Observations and Conclusions……………………………           2


               BACKGROUND……………………………………………. 3


               DETAILS OF FINDINGS

               One Operations Office Was Unaware
                of Biological Select Agent Activities.……………………   6

               Inadequate Notification of
                Biological Select Agent Projects.………………………..     9

               CDC Requirements Were Not Followed………………… 11

               Some Laboratories Did Not Register With CDC……….. 11

               Potentially Misleading Information in
                Registration Forms………………………………………. 13

               The Department’s Policies and
                Procedures Were Inadequate…………………………..           14

               Required Responsibilities Not Performed………………     14

               Inconsistent Receipt/Screening Procedures……………    16

               Required Hazard Analysis Was Based
                On Incomplete Data……………………………………..               20

               Inconsistent Policies Regarding
                Worker Immunizations…………………………………..              22
INSPECTION OF DEPARTMENT OF ENERGY ACTIVITIES
INVOLVING BIOLOGICAL SELECT AGENTS
               NEPA Reviews Not Conducted………………………….        23


               OBSERVATIONS

               Lack of Timely Response From CDC…………………...   24

               Changes to CDC Interpretations…………………….…..   24

               Lack of CDC Inspections…………………………………         24


               RECOMMENDATIONS…………………………………... 25


               MANAGEMENT COMMENTS…………………………..              26


               INSPECTOR COMMENTS………………………………               28


               APPENDIX

               A. Scope and Methodology……………………………...       30
Overview
INTRODUCTION    Department of Energy (DOE) programs include activities to
AND OBJECTIVE   prevent and detect the spread of weapons of mass destruction,
                which include biological select agents, and to respond to
                emergencies if these weapons are ever used. The Department’s
                laboratories, which include laboratories managed by the National
                Nuclear Security Administration (NNSA), conduct research
                involving biological select agents and select agent materials (e.g.,
                DNA of select agents and subunits of toxins derived from select
                agents). The research is to develop detection and response systems
                to improve preparedness in the event of a domestic attack
                involving biological select agents. The NNSA, which was created
                by the National Defense Authorization Act for Fiscal Year 2000,
                was established within DOE on March 1, 2000. The national
                security functions and activities performed by certain elements of
                the Department, including several DOE laboratories, were
                transferred to the NNSA. A number of our findings involving
                laboratories managed by the NNSA relate to circumstances
                existing prior to the establishment of the NNSA.

                Biological select agents have the potential to pose a severe threat
                to public health and safety. They include about 40 viruses,
                bacteria, rickettsia, fungi, and toxins whose transfer within the
                United States (U.S.) is controlled due to their capability to cause
                substantial harm to human health.

                The purpose of our inspection was to evaluate the environment, safety,
                and health protocols at DOE laboratories, including those managed by
                the NNSA, that conduct research with biological select agents and
                select agent materials. The objective was to determine whether the
                Department has implemented appropriate environment, safety, and
                health measures regarding the possession and use of those agents and
                agent materials.




Page 1                         Inspection of Department of Energy Activities
                               Involving Biological Select Agents
OBSERVATIONS      We found no evidence that the Department’s current biological select
AND CONCLUSIONS    agent activities have adversely impacted the safety and health of DOE
                   and contractor employees or the public. However, we found that
                  safety and security officials, as well as senior management officials, at
                  the Department’s Albuquerque Operations Office were unaware of
                  experiments involving biological select agents and select agent
                  materials that were conducted at two Albuquerque laboratories. We
                  also found that some DOE laboratories were not adhering to the
                  Centers for Disease Control and Prevention (CDC) requirements in
                  effect at the time of our review regarding the registration of certain
                  biological select agents and select agent materials. In addition, we
                  found that procedures for conducting research activities involving
                  biological select agents and select agent materials varied significantly
                  among the Department’s laboratories. We determined that the
                  Department had not developed and implemented policies and
                  procedures that (1) establish clear roles and responsibilities for the
                  conduct of activities involving biological select agents and select agent
                  materials, and (2) ensure DOE laboratories, including those managed
                  by the NNSA, follow “best practices” for the conduct of their
                  biological select agent activities. We observed that, in the absence of
                  clear direction from the Department, there were inconsistencies among
                  the Department’s laboratories regarding procedures being
                  implemented to conduct biological select agent and select agent
                  material activities. The failure of some DOE laboratories to
                  implement “best practices” for the conduct of their biological select
                  agent and select agent material activities has the potential to increase
                  the risk to employees of exposure to these agents and materials.

                  We concluded that there was insufficient organization, coordination,
                  and direction in the Department’s biological select agent activities.
                  Specifically, the Department’s activities lacked sufficient Federal
                  oversight, consistent policy, and standardized implementing
                  procedures, resulting in the potential for greater risk to workers and
                  possibly others from exposure to biological select agents and select
                  agent materials maintained by the Department. Also, we observed
                  that, in view of an ongoing reevaluation by CDC of their earlier
                  interpretations of registration requirements for biological select agents,
                  and the lack of timely responses by CDC officials to requests for
                  information/guidance, DOE laboratories may not be receiving timely
                  and consistent information regarding CDC registration requirements.
                  We discussed our observations regarding CDC with a senior official in
                  the Office of Inspector General, Department of Health and Human
                  Services, which has cognizance over CDC.




Page 2                           Inspection of Department of Energy Activities
                                 Involving Biological Select Agents
                                       On August 23, 2000, we issued our preliminary inspection findings to
                                       the Department in an initial draft report entitled “Inspection of
                                       Department of Energy Activities Involving Biological Select Agents.”
                                       We received comments from the Department on September 28, 2000,
                                       and October 23, 2000. The Department’s comments were included, as
                                       appropriate, in our final draft report, which was provided to the
                                       Department on November 14, 2000, for additional comment.

                                       On September 29, 2000, the Secretary of Energy approved the
                                       establishment of a “DOE Biosurety Working Group.” The Working
                                       Group, which was subsequently established by the Assistant Secretary
                                       for Environment, Safety and Health (EH), is considering revisions to
                                       current policies and procedures governing potentially hazardous
                                       biological materials and select agents. The Working Group is also
                                       seeking to enhance communication between sites and programs
                                       involved in managing biological hazards, as well as between the
                                       Department and other Federal and non-Federal entities, and will call
                                       attention to best practices and lessons learned across the Department.

                                       During our inspection, we consulted extensively with CDC officials,
                                       as well as with officials at the U.S. Army Edgewood Chemical
                                       Biological Center and the U.S. Army Medical Research Institute of
                                       Infectious Diseases. The U.S. Army, which conducts the U.S. Army
                                       Biological Defense Program on behalf of the Department of Defense,
                                       has developed extensive guidelines, laboratory protocols, and “best
                                       practices” for the conduct of experiments involving biological agents.
                                       These guidelines, protocols, and practices may well be instructive for
                                       development and implementation of an effective program within the
                                       Department.

BACKGROUND                             The Department has a number of ongoing activities involving
                                       biological select agents and select agent materials. These agents and
                                       materials include Bacillus anthracis (B. anthracis), Yersinia pestis
                                       (Y. pestis), Brucella abortus (B. abortus), DNA of select agents, and
                                       toxins of select agents, such as botulinum and ricin toxin. 1 For
                                       example, the NNSA Office of Nonproliferation Research and
                                       Engineering (NN-20) manages the Department’s Chemical and
                                       Biological National Security Program (CBNP). The purpose of the
                                       CBNP is to develop, demonstrate, and deliver systems and the
                                       supporting technologies that will lead to major improvements in the
                                       U.S. capability to prepare for and respond to domestic chemical or
                                       biological attacks. Also, Department laboratories are conducting

1
     B. anthracis is the organism that causes the disease known as anthrax. Y. pestis is the organism that causes the
    disease known as plague. B. abortus causes herd animals to abort their fetuses. Botulinum toxin is secreted by
    the organism Clostridium botulinum, while ricin toxin is secreted by the organism Ricinus communis. Both of
    these toxins are poisonous.


Page 3                                                                                                 Background
                                    Work-for-Others programs, Laboratory Directed Research and
                                    Development (LDRD) 2 projects, and Cooperative Research and
                                    Development Agreement (CRADA) 3 projects involving biological
                                    select agents and select agent materials. Most of the Department’s
                                    activities to date have involved select agent toxins, 4 DNA of biological
                                    select agents, and nonviable (attenuated or dead) forms of biological
                                    select agents. 5 However, activities by DOE laboratories, including
                                    those managed by the NNSA, are beginning to involve infectious
                                    (potentially lethal) forms of biological select agents that pose a greater
                                    risk to employees. For example, two of the Department’s laboratories
                                    are currently receiving intact botulinum toxin for experimentation,
                                    while another laboratory has initiated experiments with the infectious
                                    form of Y. pestis and B. anthracis. Although exact funding amounts
                                    were not available, our review of the Department’s budget suggested
                                    that the cost in FY 2000 of the Department’s biological agent-related
                                    activities was in excess of $90 million. We understand that of this
                                    amount, approximately $7 million involved work with specific
                                    biological select agents and select agent DNA.

                                    The shipment, transfer, and receipt of biological select agents and
                                    select agent materials are controlled by CDC in accordance with Part
                                    72, Title 42, Code of Federal Regulations (42 CFR Part 72). Prior to
                                    transferring or receiving a biological select agent or select agent
                                    material, a facility must register with CDC as being equipped and
                                    capable of handling that agent or material at the appropriate biosafety
                                    level. The CDC regulations are designed to assure that biological
                                    select agents and select agent materials are transferred only to facilities
                                    equipped to handle them properly, and only to those facilities that have
                                    legitimate reasons to use them. 42 CFR Part 72 also incorporates, by
                                    reference, the requirements in CDC’s publication entitled “Biosafety
                                    in Microbiological and Biomedical Laboratories” (BMBL). The
                                    BMBL describes coordination of microbiological practices, laboratory
                                    facilities, and safety equipment, and recommends their use in four
                                    biosafety levels of laboratory operation with select agents infectious to
                                    humans.

                                    During the inspection, the Office of Inspector General (OIG)
                                    issued three Management Alerts and a Letter Report regarding

2
  LDRD projects are relatively small, discretionary research and development activities conducted by the
  Department’s laboratories, in addition to those projects provided for in a Department program or by specific
  designation in a Department contract.
3
  CRADAs are cost-sharing agreements between a Federal entity, such as a Department laboratory, and a private
  sector partner to engage in joint, scientific research aimed at providing mutual benefits to the partners, the
   Department, and the U.S.
4
  Select agent toxins, such as botulinum toxin, are chemicals secreted by biological select agent organisms and are
  poisonous, but not infectious.
5
  An attenuated form of a biological select agent is an extremely weakened form of the agent.


Page 4                                                                                             Background
         concerns with certain activities by the Department involving
         biological select agents and select agent materials. These are
         referred to in the following narrative.




Page 5                                                        Background
Details of Findings
                       In comments dated December 14, 2000, to the final draft of our report,
                       the Acting Director of the Department’s Chemical and Biological
                       National Security Program stated that the Department recognizes that
                       each of the three OIG principal findings points to areas where
                       improvements are needed, and in fact, the OIG’s review has already
                       had the effect of drawing the attention of DOE managers more closely
                       to these matters. He said that the Department has initiated several
                       actions over the past year to improve coordination, oversight, and
                       consistency in regard to biological research involving potentially
                       hazardous materials. He also said that DOE acknowledges that there is
                       room for improvement.

                       According to the Acting Director, the Department agrees that to the
                       extent safety management systems are lacking in any regard, there is at
                       least a theoretical potential for increased risk. He said that this is part
                       of the reason why the Department is seeking improvements in existing
                       policies and practices. He also said that the Department believes it is
                       equally important to acknowledge, however, that in the specific
                       instances covered by the OIG review there is no indication that any
                       workers or the public were actually put at risk.

                       We found no evidence that the health of workers or the public was
                       adversely affected by the Department’s biological select agent
                       activities. However, although the Acting Director stated that the
                       biological select agents and associated materials used by DOE have
                       “posed low risks,” we identified projects that were categorized by
                       DOE hazard analyses as having “moderate” risk. In fact, these
                       projects were required to be conducted in a biosafety level 2 facility,
                       which, according to CDC, is “for work involving agents of moderate
                       potential hazard to personnel and the environment.” As discussed
                       below, we also learned that the Department has initiated projects
                       involving more exotic biological agents.

One Operations         We found that safety and security officials, as well as senior
Office Was Unaware     management officials, at the Albuquerque Operations Office
Of Biological Select   (Albuquerque), were not aware of experiments involving biological
Agent Activities       select agents or select agent materials that were conducted at two of
                       the three Albuquerque laboratories. Albuquerque laboratories include
                       Sandia National Laboratories in California (Sandia-CA) and New
                       Mexico (Sandia-NM), and Los Alamos National Laboratory (Los
                       Alamos).

                       We were unable to determine the extent of biological select agent
                       activities at Albuquerque laboratories from responses provided by
                       Albuquerque officials to our inquiries. For example, a senior Kirtland
                       Area Office (Kirtland) official told us in February 1999, and again in



Page 6                                                                  Details of Findings
         November 1999, that the only activities being conducted by the Sandia
         National Laboratories involving actual biological agents were
         conducted by Sandia-CA. However, in a November 1999 response to
         a July 1999 OIG survey questionnaire to the Albuquerque Manager
         requesting information on biological agent activities being conducted
         at Albuquerque laboratories, we were advised by an Albuquerque
         official that Albuquerque laboratories “only has [sic] ‘simulants,’ not
         the real thing.”

         As discussed below, we subsequently learned that experiments
         were conducted with biological select agents or select agent
         materials at all three Albuquerque laboratories. We also learned
         that Albuquerque safety and security officials having oversight
         responsibility for safety and security at the laboratories, as well as
         senior Albuquerque and senior laboratory officials, were unaware
         of the presence of the biological select agents or select agent
         materials. In November 1999, we advised the senior Kirtland
         official that Sandia-NM had conducted experiments with the
         biological select agent Y. pestis EV76. According to a CDC
         official, the EV76 form of Y. pestis required registration as a select
         agent with CDC. We were told that even though the Principal
         Investigator interpreted that the Y. pestis EV76, which had been
         used as a vaccine in the 1970s, was exempt from CDC registration
         requirements, the Principal Investigator had chosen to be
         conservative and registered the Y. pestis EV76 with CDC.
         Following our notification of the senior Kirtland official, Sandia-
         NM safety officials, who had been unaware of the presence of the
         agent Y. pestis EV76, found some of the agent, which had been
         destroyed, stored in a formalin solution at the laboratory. After
         learning of the presence of this material, the Kirtland Manager
         requested that Sandia National Laboratories submit a list of all
         projects using or planning to use biological materials and the
         controls/requirements applying to their use. On March 13, 2000,
         the OIG issued a Letter Report entitled “Review of Applied
         Biophysical Lab at SNL, Albuquerque,” INS-L-00-04, concerning
         the presence of this material.

         The Albuquerque officials were also unaware of experiments being
         conducted at Los Alamos with attenuated B. anthracis and with DNA
         of several select agents. When we learned from a scientist at another
         laboratory in January 2000 that he had received select agent DNA
         from Los Alamos, we interviewed the Los Alamos Principal
         Investigator who had shipped the select agent DNA to the scientist.
         During the interview, the Principal Investigator acknowledged that Los
         Alamos had an extensive biological select agent program involving
         attenuated B. anthracis, as well as DNA of several biological select



Page 7                                                    Details of Findings
         agents. We were subsequently advised by another Los Alamos
         Principal Investigator that Los Alamos was proposing to begin
         experiments with an infectious form of B. anthracis.

         Shortly after we advised Albuquerque officials of the experiments at
         Sandia-NM involving Y. pestis EV76, the Kirtland Environment,
         Safety and Health (ES&H) Team Leader, who was the Albuquerque
         official having line management oversight of safety for Sandia-CA and
         Sandia-NM, was informally tasked by the Kirtland Manager to
         determine the extent of work at the two laboratories with biological
         select agents. Also, according to an NN-20 official, a “biosurety
         initiative” was initiated by Albuquerque on December 1, 1999. This
         initiative, which was led by the Kirtland ES&H Team Leader, was to
         address concerns regarding biological select agent activities at the
         Albuquerque laboratories. We were told by the Kirtland ES&H Team
         Leader, however, that he did not receive formal tasking for the
         “biosurety initiative” from the Albuquerque Manager until early
         January 2000. This tasking was to conduct an assessment of all the
         biological select agent activities at Albuquerque. According to the
         Kirtland ES&H Team Leader, he was unable to spend much time on
         the “biosurety initiative” until April 2000, when he was able to pursue
         the assignment on a full time basis.

         In July 2000, the Kirtland ES&H Team Leader briefed senior
         Albuquerque managers on his assessment of the biological select agent
         activities at Albuquerque. He found that, at that time, there was “no
         coordination or accountability between AL [Albuquerque] as a DP
         [Defense Programs] site, and NN-20 as the program direction
         organization.” He also found that in the absence of such coordination,
         Albuquerque was unaware of what work was underway and was
         unable to provide safety or security oversight. Based on the Kirtland
         ES&H Team Leader’s assessment, the work by Albuquerque
         laboratories with biological select agents and select agent materials
         appears to have been performed in the absence of safety and security
         oversight by Albuquerque officials.

         According to an NN-20 official, his office did not provide safety and
         security oversight of the CBNP projects being conducted by the
         Department’s laboratories, but instead depended on the Operations
         Offices to provide such oversight. In the absence of safety and
         security oversight of these projects by either Albuquerque or NN-20
         officials, there appears to have been insufficient Federal safety and
         security oversight of the NN-20 work involving biological select
         agents and select agent materials being conducted at the Albuquerque
         laboratories. In September 2000, the NN-20 CBNP Director advised
         us that Albuquerque is “developing coordinated procedures and



Page 8                                                 Details of Findings
                            processes needed to implement a comprehensive, integrated oversight
                            program.” He said that this will be structured from the “ground up” to
                            provide effective Federal oversight while minimizing adverse impact
                            to the laboratories and to sponsors in this important research area.

Inadequate Notification Albuquerque safety and security officials, as well as senior
Of Biological Select    Albuquerque management officials, might not have known of the
Agent Projects          presence of certain biological select agents and select agent
                        materials at two of their laboratories because NN-20 did not provide
                        sufficient information to allow the Department’s Operations Offices to
                        identify CBNP projects that involved these materials. During our visit
                        to Albuquerque in February 2000, we observed that the only
                        mechanism in place to communicate NN-20 select agent project
                        information to Albuquerque was via the CBNP Project Life Cycle
                        Plans. However, the Deputy Assistant Secretary for Nonproliferation
                        Research and National Security told us in April 2000 that there had
                        been a “breakdown of communications” in NN-20, which resulted in a
                        failure to provide Project Lifecycle Plans to the Operations Offices and
                        a failure to include the Operations Office Managers in briefings
                        regarding the CBNP projects. The CBNP Project Lifecycle Plans
                        contain information such as the major project tasks conducted by each
                        laboratory, the biological select agents involved, and associated
                        funding. He said that he initiated corrective actions to address this
                        lack of communication. He said that without Project Lifecycle Plans,
                        briefings by NN-20 officials about the CBNP projects, and specific
                        contract language regarding biological select agent activities,
                        Albuquerque officials would have no way of knowing that NN-20 had
                        contracted work to the laboratories involving biological select agents.

                            The Kirtland ES&H Team Leader’s assessment for his July 2000
                            briefing to senior Albuquerque managers also found that NN-20 had
                            not provided the field with any information on the projects proposed or
                            underway, which he noted was an issue being pursued by the OIG. He
                            believed that in the absence of such information or coordination “there
                            is no ability of AL [Albuquerque] to provide oversight or security.”
                            Although we were subsequently advised in September 2000 by the
                            NN-20 CBNP Director that copies of the CBNP Project Lifecycle
                            Plans had been provided to the Operations Offices, he acknowledged
                            that they had insufficient detail to identify the projects that involved
                            the use of select agents or the DNA of select agents. In October 2000,
                            we were told by the Kirtland ES&H Team Leader that Project Life
                            Cycle Plans had been provided to Albuquerque budget personnel, but
                            had not been distributed to the other Albuquerque organizations.

                            Although this might explain why Albuquerque safety and security
                            officials, as well as senior Albuquerque managers, were unaware of



Page 9                                                                     Details of Findings
          the CBNP research activities involving biological select agents and
          select agent materials that were funded by NN-20, this does not
          explain why these officials were unaware of other biological select
          agent and select agent material research activities, such as LDRD and
          Work-for-Others projects, that were being conducted at Albuquerque
          laboratories. According to the Kirtland ES&H Team Leader, all
          biological select agent activities “fell through the cracks” and were not
          reviewed by Albuquerque. He added that there had been no
          mechanism in place for biological select agent project information to
          reach him or the Albuquerque Manager.

          In September 2000, the NN-20 CBNP Director advised us that the
          Albuquerque Laboratory Programs Division had been aware of these
          activities as evidenced by their programmatic review of pertinent
          program documents in Work-for-Others programs, LDRD projects and
          CRADAs. He also said that the Albuquerque Technology
          Development Division, which authorizes work for the CBNP, had
          been aware of work concerning “proposed” use of select agents. He
          acknowledged, however, that Albuquerque safety officials at the staff
          level, particularly at the Area Offices with line responsibility for
          laboratory activities, “were not necessarily aware of such activities.”

          According to the Kirtland ES&H Team Leader, his “special tasking”
          in January 2000 from the Albuquerque Manager to review all
          chemical/biological projects at the Albuquerque laboratories had been
          based on the recognition by the Albuquerque Manager of the “void in
          line management oversight” of biological activities at the laboratories
          and the related vulnerabilities. The Kirtland ES&H Team Leader
          acknowledged that none of the contracts with the Albuquerque
          laboratories specifically addressed biological activities and there was
          no requirement for laboratory officials to advise Albuquerque of their
          activities involving biological select agents. He said, therefore, that
          Albuquerque is developing specific language for their laboratory
          contracts that will require the laboratories to address issues related to
          biological work, such as safeguards and security, emergency
          management, and biosafety.

          In comments dated December 14, 2000, to the final draft of our report,
          the Acting Director of the Department’s Chemical and Biological
          National Security Program stated that the OIG’s draft report correctly
          identifies communication lapses, and the OIG review has already
          spurred corrective actions, which began over a year ago. He said that
          today communication is significantly improved and getting better.
          According to the Acting Director, the discreet problems identified by
          the OIG have been resolved, and DOE is developing and
          implementing plans to improve communication in the area of



Page 10                                                   Details of Findings
                        potentially hazardous biological research activities throughout relevant
                        Departmental elements. He added that the Albuquerque Biosurety
                        Initiative mentioned in the draft report is an example of this. He
                        mentioned as another example, that the Project Lifecycle Plans
                        provided to the Operations Offices by the Office of Defense Nuclear
                        Nonproliferation now describe the projects in more detail than older
                        plans.

CDC Requirements        We found that some Department laboratories were not adhering to
Were Not Followed       certain CDC requirements that were in effect at the time of our review
                        regarding the registration of biological select agents and select agent
                        materials. We identified two laboratories that had received biological
                        select agents or select agent materials, but had not registered with
                        CDC. We also identified one other laboratory that appeared to have
                        provided potentially misleading information to CDC in its registration
                        application regarding the biosafety level of the facility that would be
                        used for work with a biological select agent.

Some Laboratories Did   The OIG issued two Management Alerts concerning the lack of
Not Register With CDC   registration by two of the Department’s laboratories for the receipt
                        of biological select agents and select agent materials. One
                        Management Alert entitled “Management Alert on Inspection of
                        ‘Chem-Bio Safety Protocols at DOE’ (S99IS040),” dated
                        October 28, 1999, concerned work at the Department’s Idaho
                        National Engineering and Environmental Laboratory (Idaho
                        Laboratory) with non-viable (dead) B. abortus cells received from
                        the Department of Agriculture. Idaho Laboratory officials told us
                        that they did not believe they had to register the receipt of the cells
                        with CDC because the cells were dead. In fact, the Idaho Principal
                        Investigator believed he had been told by CDC that registration of
                        the dead cells was not required. However, in correspondence
                        received from CDC in October 1999, a CDC official advised us
                        that under 42 CFR Part 72, registration of the B. abortus cells was
                        required regardless of whether the cells were alive or dead.
                        According to the CDC official, CDC had consistently provided this
                        guidance to all inquiries. After we issued our Management Alert,
                        Idaho Laboratory officials registered with CDC for the receipt of
                        the B. abortus cells.

                        The second Management Alert entitled “Management Alert on
                        Inspection of ‘Chem-Bio Safety Protocols at the Department of
                        Energy’ (S00IS010),” dated January 14, 2000, concerned receipt by
                        Sandia-CA of subunits of biological select agents (A and B strains of
                        botulinum toxin heavy chains and both subunits of ricin) in a dry,
                        powder form. According to Sandia-CA officials, receipt of these toxin
                        subunits was not registered with CDC because they believed the



Page 11                                                                  Details of Findings
          shipments were exempt under 42 CFR Part 72 from registration due to
          their low toxicity and because the agent materials would only be used
          for biomedical purposes.

          Following our November 1999 visit to Sandia-CA, we discussed the
          receipt of these toxin subunits by Sandia-CA with CDC officials, who
          expressed concern that Sandia-CA had not registered to receive these
          subunits. The CDC officials said, among other things, that registration
          for the receipt of either botulinum heavy chains or light chains is
          required because if both were ordered, these subunits could be
          reconstituted into highly toxic botulinum toxin. CDC officials said
          they planned to discuss the non-registration of these subunits with
          Sandia-CA officials. According to the Department’s Lawrence
          Livermore National Laboratory (Lawrence Livermore) Biosafety
          Officer, he had received similar guidance from CDC officials
          concerning the requirement to register toxin subunits. We learned that
          both Lawrence Livermore and the Idaho Laboratory, which also had
          conducted work with subunits of these toxins, had registered with
          CDC for the receipt of the toxin subunits.

          In September 2000, we were advised by the NN-20 CBNP Director
          that while CDC indicated in their opinion to the OIG that these heavy
          chains should be registered, no such opinion has been promulgated by
          CDC to either the Department’s line management or to the general
          regulated community to date. He said that Albuquerque is evaluating
          the impact of this for registration under the select agent rule.

          Although it was the view of CDC officials following our November
          1999 visit to Sandia-CA that the receipt of either strain (strain A or
          strain B) of a botulinum heavy chain by Sandia-CA required
          registration, we recently learned that CDC is reevaluating its earlier
          position. During discussions with CDC officials in October 2000, we
          were advised that CDC has begun to reevaluate some of the
          interpretations it made in the process of implementing 42 CFR Part 72.
          We were told that, in the past, CDC recognized non-toxic subunits of
          toxins listed in Appendix A of 42 CFR Part 72 as subject to the rule if
          the subunits could be reconstituted with recovered toxicity. According
          to CDC officials, after careful reevaluation of this interpretation, CDC
          now recognizes subunits of toxins listed in Appendix A to be exempt
          provided that the subunit itself meets the exemption listed in 42 CFR
          Section 72.6 (h)(ii). We were told that the results of CDC’s
          reevaluation regarding registration of the subunits of the toxins listed
          in Appendix A of 42 CFR Part 72 will soon be posted on the CDC
          Internet web site.




Page 12                                                  Details of Findings
                         In comments dated December 14, 2000, to the final draft of our report,
                         the Acting Director of the Department’s Chemical and Biological
                         National Security Program stated, among other things, that the
                         laboratories did not originally register with CDC for the materials in
                         question because of reasonable interpretations that registration was not
                         required. However, we note that Appendix A of 42 CFR Part 72 lists
                         the select agents that require registration with CDC, as well as any
                         exemptions to registration. In our view, if any form of the select
                         agents listed in Appendix A is shipped or received, the material must
                         be registered, unless specifically exempted. We believe that CDC
                         should be contacted if there is a question regarding the need to register
                         an agent or a form of an agent. We found no documentation from the
                         Idaho Laboratory, however, that officials had requested or received
                         any guidance from CDC regarding the requirement to register dead
                         cells of B. abortus, nor did we find evidence that Sandia-CA officials
                         had contacted CDC regarding registration of the subunits of toxins.
                         Instead, officials at both laboratories made their own determination at
                         that time that registration was not required.

Potentially Misleading   As previously discussed, CDC regulations requiring registration for
Information in           the transfer or receipt of biological select agents and select agent
Registration Forms       materials are designed to assure that infectious agents and toxins are
                         shipped only to facilities equipped to handle them properly, and only
                         to those which have legitimate reasons to use them. Registration
                         includes providing sufficient information to indicate that the applicant
                         facility is “equipped and capable of handling the agents” at the
                         appropriate biosafety level, depending on the agent and the type of
                         work being performed with the agents. The facility may be inspected
                         by CDC and the registration withdrawn upon evidence that the facility
                         is not capable of handling covered agents at the applicable biosafety
                         level (BSL).

                         We learned that officials at the Department’s Brookhaven National
                         Laboratory (Brookhaven) submitted a registration application to CDC
                         for receipt of intact botulinum toxin and stated on the application that
                         the work would be conducted in a BSL-2 facility. We determined,
                         however, that some of the experiments with the botulinum toxin were
                         actually planned for and conducted in another on-site facility, the
                         National Synchrotron Light Source (Light Source), which had not been
                         approved as a BSL-2 facility.

                         The Brookhaven registration application states that minute crystals of
                         the intact botulinum toxin within sealed multiple containment will be
                         brought from a BSL-2 laboratory to the Light Source for x-ray
                         diffraction analysis. It also states that after analysis, the crystals, in
                         sealed multiple containment, will be returned to the BSL-2 laboratory



Page 13                                                                   Details of Findings
                   for disposal. The emphasis in the application is that the crystals are in
                   sealed multiple containment when transported to and from the Light
                   Source. The application, however, does not indicate that the crystals
                   will be removed from the sealed multiple containment for
                   experimentation in the Light Source, a non-BSL-2 facility. Although
                   we found no evidence that Brookhaven officials intentionally tried to
                   mislead CDC, we believe that the application, as it was written,
                   provided potentially misleading information to the CDC such that they
                   could not make a knowledgeable determination regarding the level of
                   protection being provided for the material while in the Light Source.

The Department’s   We found that procedures for conducting certain research activities
Policies and       involving biological select agents and select agent materials varied
Procedures Were    significantly among the Department’s laboratories. We determined
Inadequate         that the Department had not developed and implemented policies
                   and procedures that (1) establish clear roles and responsibilities for
                   the conduct of activities involving biological select agents and
                   select agent materials, and (2) ensure DOE laboratories, including
                   those managed by the NNSA, follow “best practices” for the
                   conduct of their biological select agent activities.

Required           We found that individuals at several sites were not performing all
Responsibilities   their required responsibilities regarding certain biological select
Not Performed      agent activities. For example, at Brookhaven, the individual
                   designated as the “responsible facility official” understood her
                   responsibility for signing the CDC form for transferring and
                   receiving biological select agents. However, she was unaware of
                   the additional management responsibilities that are assigned by
                   CDC regulations to the “responsible facility official,” which
                   include notification to the shipper within established time frames
                   of the receipt of the biological select agent, and formal notification
                   to CDC when a biological select agent is consumed or destroyed.
                   We did not find evidence that Brookhaven failed to make the
                   required notifications to the shipper and CDC. However, we
                   determined that the responsibility for making the notifications was
                   improperly delegated by the “responsible facility official” to the
                   Principal Investigator, who received the biological select agent.
                   According to 42 CFR Section 72.6, the “responsible facility
                   official” should be either a safety officer, a senior management
                   official of the facility, or both, but should not be an individual who
                   actually transfers or receives an agent at the facility.

                   Also, we determined that, at the time of our visit in February 2000, the
                   Los Alamos Industrial Hygiene and Safety Group (ESH-5), which
                   included the Los Alamos Biological Safety Officer, had not conducted
                   the required assessments and evaluations of the laboratory’s biosafety



Page 14                                                            Details of Findings
          program. The Los Alamos Laboratory Implementation Requirements
          (LIR 402-530-00.1) document entitled “Biological Safety (Biosafety)”
          specifies the Los Alamos Biosafety Program requirements to be
          implemented for research and operations involving bioagents/
          biohazards. According to the Los Alamos Requirements document,
          ESH-5 shall “determine the effectiveness of the Biosafety Program
          through assessments and evaluations. . . .” The Los Alamos Biosafety
          Requirements document also specifies certain records that shall be
          maintained, to include, among others, “inspections or evaluations
          performed by the Biological Safety Officer and evaluations performed
          by other members of ESH-5.” During our visit, we asked for copies of
          all reports regarding reviews of Los Alamos biological activities.
          None of the reports we were provided concerned assessments or
          evaluations conducted by ESH-5 members, including the Los Alamos
          Biological Safety Officer, regarding the effectiveness of the Los
          Alamos Biosafety Program. Also, at the time of our site visit, the Los
          Alamos Biological Safety Officer acknowledged that she had not
          conducted any independent inspections or evaluations of the Biosafety
          Program.

          We were advised by the NN-20 CBNP Director in October 2000, that
          “in lieu of the internal program review for 1999, LANL [Los Alamos]
          and the DOE Albuquerque Operations Office agreed that a biosafety
          review would be conducted as part of the scheduled external DOE
          ‘Integrated Safety Management Milestone Review’ and would
          substitute for the internal review.” He said that this review had been
          conducted in April 1999 by Albuquerque staff. He said that the next
          annual review was conducted by the Los Alamos Biological Safety
          Officer beginning in September 2000. However, our review of the Los
          Alamos Biosafety Requirements document determined that there was
          no requirement for an annual “internal program review” of the
          effectiveness of the Biosafety Program. Instead, as discussed above,
          the language in the Los Alamos Biosafety Requirements document
          implies a continuing series of assessments and evaluations, rather than
          a single annual program review. Therefore, we do not believe the
          external annual program review conducted by Albuquerque fulfills the
          requirement in the Los Alamos Biosafety Requirements document for
          ESH-5 to conduct assessments and evaluations to determine the
          effectiveness of the Biosafety Program.

          In comments dated December 14, 2000, to the final draft of our report,
          the Acting Director of the Department’s Chemical and Biological
          National Security Program stated that the reviews were conducted by
          Albuquerque with members of ESH-5 present, and were at least as
          comprehensive as the required internal review. However, the Acting
          Director’s comments did not address whether the Albuquerque reviews



Page 15                                                 Details of Findings
                    fulfilled the requirement for ESH-5 to conduct assessments and
                    evaluations to determine the effectiveness of the Biosafety Program.

Inconsistent        We observed that certain Department laboratories had
Receipt/Screening   implemented procedures for screening biological select agents
Procedures          and select agent materials upon receipt and for handling agents
                    received in damaged shipping containers, while other laboratories
                    had not. We believe that the implementation of procedures for
                    handling damaged shipping containers, along with appropriate
                    screening procedures, could significantly reduce the potential risk
                    to employees of exposure to possibly harmful biological select
                    agents.

                    Select Agent Screening/Verification

                    While some of the Department’s laboratories screened biological
                    select agents and select agent materials to ensure the material that
                    was received was the material that was ordered, others either had
                    inadequate screening procedures or depended on certification by
                    the shipper that the proper material was shipped.

                    According to the Kirtland ES&H Team Leader, there appears to be
                    “undue trusting acceptance” that orders placed with vendors are filled
                    with the correct material. He said that while shippers generally do a
                    good job in that regard, there have been “several questionable receipts
                    when DOE laboratory staff assumed material that was received was
                    non-pathogenic.” He said that the implications and possible
                    consequences of an inadvertent shipment of a live agent that is
                    unknowingly handled as non-pathogenic “could be grave.”

                    The following incidents at three of the Department’s laboratories
                    illustrate the potential risk of relying on possibly inadequate screening
                    procedures or shipper certifications.

                    Although one laboratory, Los Alamos, had a screening process for
                    select agent DNA, on one occasion the Principal Investigator was
                    unable to determine whether he had actually received the material he
                    had ordered. During our February 2000 visit to Los Alamos, the
                    Principal Investigator told us that he had worked with what he thought
                    was DNA of a select agent for four months, only to learn that the
                    material he had received was not what he had ordered. Later, in
                    September 2000, the NN-20 CBNP Director clarified in comments to a
                    draft of our report that, after work had been conducted with the
                    material for four months, Los Alamos had found that the select agent
                    DNA that had been received was, in fact, contaminated with the DNA
                    from a common skin microbe prior to arriving at Los Alamos. He also



Page 16                                                             Details of Findings
          said that the shipment had been screened by Los Alamos using filter-
          sterilization, which removes microorganisms but does not eliminate
          DNA contaminants. He added that he did not view the contamination
          with the DNA of the skin microbe to be a potential safety hazard.

          We are concerned, however, that the process used by Los Alamos to
          screen the shipment of select agent DNA did not alert the Principal
          Investigator that the shipment contained unknown biological material.
          Although in this case the material that was included in the shipment
          was only the DNA of a skin microbe, future shipments of select agent
          DNA could contain harmful material, such as select agent toxins, that
          might not be totally eliminated by the process used by Los Alamos to
          screen DNA shipments.

          In comments dated December 14, 2000, to the final draft of our report,
          the Acting Director of the Department’s Chemical and Biological
          National Security Program stated that the screening process used by
          Los Alamos is consistent with best practices in use elsewhere. He said
          that it is impractical to test for all possible contaminants, and there was
          no significant reason to routinely screen for the presence of DNA of a
          skin microbe. According to the Acting Director, the matter should be
          viewed in the context of shipper and receiver responsibilities, and
          while there is not an absolute guarantee that an error will never be
          made, the existing protocol provides significant and widely accepted
          assurance that risks are minimized.

          We note, however, that according to the potential hazard assessment
          for the Los Alamos DNA project, the shipper only had to certify that
          the shipment was “microbe free.” In view of the presence of a
          contaminant in the shipment received by Los Alamos, which only
          after four months was discovered to be the DNA of a skin microbe, we
          remain concerned with the adequacy of the Los Alamos screening
          process.

          Also, in December 1999, a Principal Scientist at another laboratory,
          Lawrence Livermore, told us that he had the laboratory policy changed
          to require screening after he realized the quality and safety benefits
          that could be gained by screening select agent shipments. He
          described an incident that occurred after the screening process was
          implemented, which involved the screening of a shipment of
          attenuated B. anthracis. According to the Principal Scientist, the
          preliminary screening process indicated that the B. anthracis was
          potentially not attenuated. However, we were advised that the
          particular test is subject to “false positives” and rather than using
          additional tests to determine whether the B. anthracis was, in fact, the
          viable, infectious form of the agent, the sample was destroyed.



Page 17                                                    Details of Findings
          Although the test results were inconclusive whether the material that
          was received was the viable, infectious form of B. anthracis, we
          believe this incident highlights the potential hazards associated with
          the receipt of biological select agents and select agent materials.

          A third laboratory, the Department’s Lawrence Berkeley National
          Laboratory (Lawrence Berkeley), also had established a process to
          screen all samples of agents it received. In November 1999, a
          Principal Scientist told us of an incident when a shipment of attenuated
          B. anthracis was ordered, but did not pass the laboratory’s screening
          process that would have verified that the material was attenuated. He
          said the agent was not tested to determine whether it was the viable,
          infectious form of B. anthracis, but was immediately destroyed. He
          said that because of this incident, a laboratory official decided that in
          the future, all employees working with attenuated B. anthracis should
          be offered immunization and subsequently, all were immunized.

          Sandia-CA, however, is one Department laboratory that does not
          screen shipments of select agent materials. According to Sandia-CA
          officials, the laboratory depends on the certification of the shipper as
          to the type and quality of the material shipped.

          Damaged Container Procedures

          While some Department laboratories had developed and
          implemented specific procedures to handle damaged shipping
          containers containing biological select agents and select agent
          materials, other laboratories had not. We believe that
          implementation of specific handling procedures for damaged
          containers received at the Department’s laboratories could possibly
          reduce the risk of exposure of laboratory personnel to harmful
          materials, particularly in the event that the materials received are
          not those that were ordered.

          We learned that Sandia-CA had developed and implemented
          procedures for handling damaged containers containing biological
          select agents and select agent materials. Also, the Idaho Laboratory,
          which received shipments of botulinum toxin, had developed written
          procedures for handling damaged packages of the toxin after
          determining that such procedures were necessary. However, at least
          two Department laboratories, Lawrence Berkeley and Los Alamos, had
          not developed specific procedures for handling damaged shipping
          containers containing biological select agents and select agent
          materials. For example, we were advised by the Lawrence Berkeley
          Biosafety Officer in August 2000, that Lawrence Berkeley had not
          developed specific procedures to handle damaged packages containing



Page 18                                                   Details of Findings
          biological select agents because, at that time, the laboratory did not
          order “full blown lethal select agents.”

          Also, Los Alamos, which has worked with attenuated B. anthracis and
          DNA of biological select agents and is proposing to conduct activities
          involving the viable, infectious form of B. anthracis, has not
          developed specific procedures for handling damaged packages. We
          were told by the Los Alamos “responsible facility official” that Los
          Alamos has no special procedures or specific training regarding their
          receipt or shipment process for select agents. In addition, we were told
          by the Los Alamos Biosafety Officer that Los Alamos also lacked a
          “hazard control plan” for damaged packages containing biological
          agents received by the Los Alamos shipping department.

          An incident at Los Alamos involving a shipment of select agent DNA
          illustrates the potential risk of workers being exposed to harmful
          biological select agents and select agent materials when damaged
          containers are received in the absence of specific procedures to handle
          them. A Los Alamos Principal Scientist told us that the laboratory
          shipping and receiving department received a shipment of select agent
          DNA with crushed inner and outer containers. The Principal Scientist
          said that he destroyed the shipment because of the possibility that the
          shipment could have contained more than just the DNA portion of the
          select agent that he had ordered. The Los Alamos “responsible facility
          official,” however, said that he did not see a need for “special handling
          procedures.” He told us that he believed there was “zero risk”
          regarding the receipt of select agent DNA and, therefore, no special
          procedures or specific training were necessary regarding the receipt or
          shipment process for handling these materials. He advised us that he
          believed that Los Alamos’ general procedures were adequate.

          CDC, however, requires a BSL-2 facility for receipt and containment
          of DNA from biological select agents because of the possibility that
          the shipments may include the actual agent as well. According to a
          CDC official, CDC is concerned with the reliability of the shipper to
          provide only the DNA of the biological select agent and the ability of
          the receiver to determine what was actually received.

          In comments dated December 14, 2000, to the final draft of our report,
          the Acting Director of the Department’s Chemical and Biological
          National Security Program stated that Los Alamos has a hazard control
          plan for the handling of regulated materials and the control of
          exposures to hazardous materials from damaged packages, which was
          prepared by the Shipping and Receiving Group. Further, the Group’s
          Work Procedure specifically addresses requirements for the handling
          of damaged packaging containing hazardous materials.



Page 19                                                   Details of Findings
                     As discussed above, however, the Los Alamos Biosafety Officer told
                     us that Los Alamos lacked a hazard control plan for damaged packages
                     containing biological agents received by the Los Alamos shipping
                     department. Also, we were told by the NN-20 CBNP Director in
                     October 2000, that the Los Alamos Hazard Control Plan for Shipping
                     and Receiving workers generically addresses the handling of
                     hazardous materials. We believe that due to the potential safety and
                     health risks associated with biological agents, specific procedures
                     should be developed to handle damaged packages containing
                     biological select agents and select agent materials received by the Los
                     Alamos shipping department.

Required Hazard      We determined that documentation describing activities involving
Analysis Was Based   biological select agents at Brookhaven did not contain a
On Incomplete Data   sufficient level of detail for laboratory officials to fully identify
                     potential hazards. Specifically, documentation for a project
                     submitted to the laboratory’s Institutional Biosafety Committee
                     (IBC), which reviews and approves biological select agent
                     experiments, contained insufficient information for the IBC
                     members and laboratory safety and health personnel to ensure that
                     all hazards associated with the project were identified, analyzed,
                     and determined to be either avoidable or manageable.

                     At Brookhaven, a Standard Operating Procedure (SOP) document
                     was prepared for experiments in a BSL-2 facility using intact
                     botulinum toxin. According to the “Material Data Safety Sheet”
                     for the botulinum toxin, the acute effects of the material include
                     “may be fatal if inhaled, swallowed, or absorbed through the skin.
                     The toxin is among the most powerful paralytic poisons known,
                     having irreversible effects.” The SOP states that the botulinum
                     toxin was to be transported in sealed multiple containment to
                     another facility on the site, the Light Source, for additional
                     experiments. We were told by a Brookhaven Industrial Hygienist,
                     who managed the Light Source, that one tiny crystal of the
                     botulinum toxin could cause death if ingested. As discussed
                     previously, the Light Source was not an approved BSL-2 facility at
                     the time of our site visit. Although the SOP did not state that the
                     botulinum toxin would be removed from its containment while in
                     the Light Source, we learned from the Principal Investigator that
                     the botulinum toxin was, in fact, routinely removed from its
                     containment for the Light Source experiments. We also learned
                     that as many as 30 individuals, some at work stations located only
                     6 to 8 feet away, could have been working on other projects in the
                     Light Source when the botulinum toxin was removed from its
                     containment. We did not find evidence, however, that any of these
                     individuals was harmed by the experiments.



Page 20                                                              Details of Findings
          We determined that the project description provided to the
          laboratory IBC, which had approved the botulinum toxin
          experiments, did not state that the botulinum toxin would be
          removed from its containment in the Light Source. We also
          determined that the document submitted to the laboratory’s
          Experiment Safety Review Committee for its safety review did not
          mention that the botulinum toxin would be removed from its
          containment while in the Light Source. This document, “Biology
          Department ES&H Review of Experiments,” contained a section
          for the Principal Investigator to specifically identify, describe, and
          analyze the potential hazards associated with the project. At the
          time of our visit in January 2000, both the IBC Chairman and the
          Manager of Brookhaven’s Safety and Health Services Division
          told us that they did not know that the botulinum toxin was to be
          removed from its containment for the Light Source experiments.
          However, in September 2000, the NN-20 CBNP Director reported
          that the IBC Chairman had known that the toxin was being
          removed from its container in the Light Source.

          Nonetheless, after we informed the IBC Chairman in January 2000
          that the botulinum toxin was being removed from its containment and
          manipulated in the Light Source, he initiated several corrective
          actions. These were to revise the SOP to require freezing of the
          botulinum toxin to take place only in the BSL-2 laboratory, not in the
          Light Source as previously permitted, and to limit where in the Light
          Source the botulinum toxin could be removed from its containment.
          Prior to the revisions, the experimenter removed the botulinum toxin
          from its containment on a work bench area, with other experimenters
          working nearby. Under the revisions, the experimenter could only
          remove the botulinum toxin from its containment in one of the “hutch”
          areas of the Light Source, which was located away from other
          experimenters.

          In comments dated December 14, 2000, to the final draft of our report,
          the Acting Director of the Department’s Chemical and Biological
          National Security Program stated that during the procedure in
          question, the toxin crystal is attached to a glass support such that
          ingestion would be “essentially impossible.” We agree with the
          Acting Director’s comment that ingestion of the toxin crystal would be
          “essentially impossible” while the crystal is attached to a glass
          support. However, we do not believe the Acting Director’s comments
          adequately consider the potential for exposure resulting from
          accidental breakage of the glass support, either through dropping or
          mishandling of the glass support during the time the material is
          removed from its containment. Accidental separation of the crystal
          from the glass support, in our view, has the potential to result in



Page 21                                                    Details of Findings
                        exposure to the toxin, not only from ingestion, but also from inhalation
                        and from absorption through the skin.

Inconsistent Policies   Occupational Medical Physicians told us that employees working
Regarding Worker        with biological select agents have the right to decline immunizations,
Immunizations           even when highly recommended by the facility Occupational
                        Medical Physician and the Principal Investigator. According to an
                        official in the Department’s Office of General Counsel, there may
                        be a potential liability for the Department if contractor employees
                        working with CDC-controlled biological select agents do not sign
                        a statement acknowledging the risks associated with the project,
                        the availability of immunizations, and the individual’s decision not
                        to be immunized. We confirmed, however, that not all of the
                        Department’s laboratories require employees working with
                        biological select agents and select agent materials to sign an
                        acknowledgement statement. At the Idaho Laboratory, for
                        example, three scientists working with botulinum toxin decided not
                        to be immunized, even though they were aware of the potential
                        dangers, and were not required by the laboratory to sign an
                        acknowledgement statement. Also, Sandia-CA does not require
                        Principal Investigators or other laboratory participants to sign a
                        statement if they work with biological select agents and decline to
                        be immunized.

                        Other Department laboratories, however, require employees to sign
                        statements if they decline to be immunized. According to the Los
                        Alamos Head Occupational Health Physician, for example, all at risk
                        personnel at Los Alamos are required to sign a statement
                        acknowledging the risks and benefits of being immunized versus not
                        being immunized.

                        An even greater potential liability for the Department may result from
                        allowing workers who decline immunizations to continue working
                        with infectious agents and, therefore, possibly infecting themselves or
                        others. As Department laboratories begin experimenting with
                        indigenous or exotic biological select agents that may cause diseases
                        having serious or lethal consequences (such as agents requiring BSL-3
                        containment), the consequences of laboratory personnel infecting their
                        spouses and others should be considered. According to CDC
                        literature, laboratories working with infectious agents have not been
                        shown to represent a threat to the community. However, the CDC
                        literature also cites isolated cases when laboratory workers became
                        infected and subsequently infected their spouses or other members of
                        the community. Because CDC only recommends immunizations for
                        workers, and the Department does not require workers to be
                        immunized, the potential exists for Department laboratory personnel



Page 22                                                                Details of Findings
                who work with infectious agents, but decline to be immunized, to
                infect others.

NEPA Reviews    We determined that National Environmental Policy Act (NEPA)
Not Conducted   reviews were not conducted at two Department laboratories for
                activities involving biological select agents.

                The OIG issued a Management Alert on June 30, 1999, entitled
                “Inspection of the Chem-Bio Facility at ORNL,” S99IS019. The OIG
                found that the Department’s Oak Ridge National Laboratory (ORNL)
                had not conducted an environmental assessment for a BSL-3
                laboratory that was being constructed for work with botulinum toxins,
                which were to be received as “lyophilized” (freeze-dried) powder.
                Based on the Department’s implementing regulations for NEPA, the
                OIG believed that an environmental assessment was required before
                the procurement, installation, and commencement of biological
                operations at the BSL-3 laboratory. Oak Ridge Operations Office
                officials subsequently placed restrictions on the Chem-Bio Facility to
                exclude BSL-3 activities, and stated they will conduct an
                environmental assessment before any BSL-3 work is performed in the
                facility.

                Also, as discussed in the OIG’s March 13, 2000, Letter Report, the
                OIG found that, although a NEPA review had been conducted by
                Sandia-NM of the original scope of work for a Work-for-Others
                project, significant changes, such as changes in work location and
                introduction of the select agent Y. pestis EV76, had been made without
                an additional NEPA review. Subsequently, Albuquerque officials
                advised us that an analysis of the existing NEPA process is ongoing to
                determine how to ensure Work-for-Others projects are receiving
                appropriate NEPA review.




Page 23                                                       Details of Findings
Observations
Lack of Timely      We had difficulty obtaining timely responses from CDC officials
Response From CDC   to our inquiries for clarification of registration requirements for certain
                    biological select agent materials. On several occasions, responses
                    were received from CDC more than a month after our inquiry. Also,
                    although we requested written responses to our inquiries, in most cases
                    CDC officials only provided verbal responses. We understand that
                    Department and laboratory officials experienced similar difficulties in
                    obtaining timely responses from CDC.

Changes to CDC      In the absence of written responses from CDC regarding their
Interpretations     interpretation of registration requirements, we found it difficult to
                    determine current registration requirements. Discussions with
                    CDC officials, for example, indicate that CDC is re-evaluating
                    earlier interpretations of the requirements. Therefore, some of the
                    materials that CDC currently requires to be registered may be
                    removed from the list of materials subject to registration, while
                    new materials may be added. For example, CDC is re-evaluating
                    whether such materials as “dead” cells of biological select agents
                    and subunits of toxins require registration.

Lack of CDC         We understand that CDC can conduct on-site inspections of
Inspections          laboratory facilities identified on the registration application for
                    biological select agents and select agent materials for a three-year
                    period from the date the registration application was approved.
                    Among other things, these inspections ensure the materials are in
                    facilities that provide the appropriate biosafety level. However, we
                    learned of only one such inspection of a DOE facility by CDC.
                    We believe that such inspections by CDC would assist the
                    Department in its efforts to ensure the safety and security of
                    activities involving biological select agents and select agent
                    materials.

                    In view of the ongoing re-evaluation by CDC of their earlier
                    interpretations of registration requirements, and the lack of timely
                    responses by CDC officials to requests for information/guidance,
                    we believe the Department should take appropriate action to ensure
                    the Department’s laboratories receive timely and consistent
                    information regarding current CDC guidance.

                    We discussed our observations with CDC officials. We were
                    advised that CDC plans to provide updated information on its
                    Internet web site regarding its interpretation of registration
                    requirements. Specifically, CDC will post written instructions for
                    facilities that have questions about registration, as well as updates
                    to the list of registered materials. CDC officials also stated that
                    CDC will improve responsiveness to DOE and other agencies by



 Page 24                                                                 Observations
                  increasing staff in the office responsible for oversight of the
                  registration process.

RECOMMENDATIONS   We recommend that the Under Secretary for Energy, Science, and
                  Environment and the Under Secretary for Nuclear Security jointly:

                  1. Identify the types and locations of activities being conducted by
                     the Department involving biological select agents and select agent
                     materials.

                  2. Initiate action to ensure: (a) appropriate Federal oversight;
                     (b) consistency in policy; and (c) standardization of implementing
                     procedures for biological select agent activities being conducted by
                     the Department. Actions, for example, could include encouraging
                     more interagency cooperation in this area and, similar to the
                     approach taken by the U.S. Army, supplementing CDC guidance
                     regarding activities involving biological select agents and select
                     agent materials to address situations unique to DOE.

                  3. Ensure that required NEPA reviews are conducted prior to the start
                     of biological select agent and select agent material activities and
                     revised, as needed, when significant changes occur in the activities.

                  4. Initiate appropriate action to ensure the Department’s laboratories,
                     including those managed by the NNSA, receive timely and
                     consistent information regarding current CDC guidance.

                  We also recommend that the General Counsel:

                  5. Determine the potential liability to the Department if contractor
                     employees working with biological select agents refuse
                     immunizations or if they do not sign a statement
                     acknowledging the risks associated with the project, the
                     availability of immunizations, and the individual’s decision not
                     to be immunized.

                  6. Determine the feasibility of requiring Department laboratory
                     employees to be immunized in order to work with infectious
                     agents.

                  7. Determine whether the Department has liability to third parties
                     (e.g., spouses, families, members of the community) who may
                     be infected as a result of coming in contact with a laboratory
                     employee who works with biological select agents, but has
                     refused to be immunized.




 Page 25                                                         Recommendations
MANAGEMENT   The Department generally concurred with our recommendations.
COMMENTS     In comments dated December 14, 2000, to the final draft of our
             report, the Acting Director of the Department’s Chemical and
             Biological National Security Program stated that while there is no
             indication that biological safety has been compromised at any
             DOE facility, the draft report correctly points out operational
             concerns and inconsistencies that existed during the review. He
             provided the following examples of actions completed by the
             Department within the past year to improve biosafety practices at
             its laboratories and said that the Department is already taking steps
             consistent with our recommendations:

             •   A biosurety program was initiated on December 1, 1999, at
                 Albuquerque to strengthen the safety and security protocols used
                 with biological select agents.

             •   Communication has been improved between DOE headquarters,
                 the Operations Offices, and the Department’s laboratories, as well
                 as between DOE and other Federal agencies involved with
                 biological research.

             •   CDC select agent registration requirements are being clarified.

             •   The former Secretary established a Biosurety Working Group led
                 by EH to recommend specific improvements in directives and
                 contract language and other actions which will improve oversight
                 and implementation of safe practices in potentially hazardous areas
                 of biological research.

             Regarding recommendation 1, the Acting Director stated that in
             consultation with CDC and the Department’s laboratories, the
             Department has confirmed the location and types of current activities
             involving select agents. Moreover, the Department is establishing a
             process to ensure this information, as well as information about
             activities involving other biologically hazardous materials, is regularly
             updated and more readily available to managers.

             Regarding recommendation 2, the Acting Director stated that the
             Department concurs with the need for appropriate Federal oversight,
             consistency in policy, and, when appropriate, standardized procedures
             for use with select agents. He said that mechanisms to improve
             oversight, coordination, and consistency are currently being reviewed
             by the Biosurety Working Group. He said that much of the Working
             Group’s focus is on improving communication and consistency. In
             particular, the Working Group is drafting proposed changes to DOE’s
             directives and contracts, and it is considering methods to improve


 Page 26                                            Management Comments
          ongoing communication through appropriate levels of management.
          In considering these changes, the Working Group is examining
          policies and procedures developed within the Department and by other
          agencies, particularly CDC and the U.S. Army.

          He also said that in parallel with the Working Group’s actions, the
          Department’s laboratory directors are confirming that biological
          research at their facilities is being appropriately addressed within their
          safety and health programs. Also, the Department is expanding
          Albuquerque’s Biosurety Initiative to encompass the DOE complex
          and promote improved communication and sharing of lessons learned
          and best practices among laboratories.

          In addition, he said that the Department continues to look to other
          agencies, especially the CDC, for direction and guidance. He said that
          the Department’s laboratories that transfer or ship select agents are
          required, pursuant to 42 CFR Part 72, to follow the procedures
          outlined in the “Biosafety in Microbiological and Biomedical
          Laboratories” guidelines, unless certified by the Clinical Laboratory
          Improvement Amendment of 1988.

          Regarding recommendation 3, the Acting Director stated that the
          Department is required to comply with NEPA. He said that the
          Department will “continue to address biological research within
          individual laboratory annual NEPA planning summaries and otherwise
          according to Departmental requirements” to ensure that appropriate
          consideration is given to NEPA compliance early in the planning
          process. In addition, the Department is acting to raise the awareness of
          managers to this particular area of research and expects that in doing
          so, NEPA compliance will be highlighted. For example, the Secretary
          recently tasked laboratory managers to certify that potentially
          hazardous biological research is appropriately addressed in annual
          NEPA planning summaries.

          Regarding recommendation 4, the Acting Director stated that DOE
          concurs with the desire to have timely and consistent information from
          CDC, and the Department recognizes its obligation to implement CDC
          guidance. Through the Albuquerque Biosurety Initiative and the
          recently established DOE Biosurety Working Group, the Department
          and its laboratories are improving communication and coordination
          with other agencies. Additional steps will be taken, as they are
          identified, to better ensure the timely evaluation and appropriate
          adoption of any newly established CDC guidance.

          Regarding recommendation 5, the Acting Director stated that staff
          members of the Office of General Counsel are in the process of



Page 27                                            Management Comments
            evaluating potential liability issues relating to the Department’s
            contractors’ work with biological agents. The issues being addressed
            include both potential direct and indirect liability, including such
            things as liability arising from the removal of contractor employees
            who decline to be immunized.

            Regarding recommendation 6, the Acting Director stated that the
            Office of General Counsel is reviewing this matter. He said that the
            U.S. Public Health Service Advisory Committee on Immunization
            Practices issues current and updated recommendations for
            immunization. He said that the Office of General Counsel has made
            an initial conclusion that existing laboratory protocols should
            periodically be reviewed for compliance with this guidance. Where no
            such protocols exist, the development of protocols consistent with this
            guidance by qualified site professional, medical staff in consultation
            with at-risk individuals and the CDC is appropriate.

            Regarding recommendation 7, the Acting Director stated that as
            discussed in his comments to recommendation 5, the Office of General
            Counsel is continuing to review questions of potential liability.

            In addition to comments regarding the recommendations in our draft
            report, the Acting Director provided specific comments concerning the
            findings and language in our draft report. We have incorporated the
            Acting Director’s comments in our final report, where appropriate.

INSPECTOR   We believe the corrective actions identified by the Department are
COMMENTS    responsive to our recommendations.

            Also, in an earlier draft of our report, we had recommended that the
            Department determine whether overall responsibility for biological
            select agent activities should be centralized in one organization. In
            comments dated December 14, 2000, to the final draft of our report,
            the Acting Director of the Department’s Chemical and Biological
            National Security Program identified existing management systems,
            such as the Department’s Integrated Safety Management program, that
            govern biological select agent research to ensure it is conducted safely
            and effectively, and stated that a new, centralized organizational
            structure to manage such research is not appropriate at this time. He
            said that creating such an organization would unnecessarily separate
            biological research from the management systems in place for other
            aspects of the Department’s work. He said that, nonetheless, DOE
            recognizes the need to better ensure that existing management systems
            effectively meet the needs of this evolving area of the Department’s
            research activities and is taking steps toward the goal.




Page 28                                                Inspector Comments
          In view of the Acting Director’s comments and the establishment of
          NNSA as a semiautonomous organization within the Department, we
          agree that establishing a new, centralized organizational structure to
          manage biological agent research may not be appropriate at this time.
          Therefore, we deleted this recommendation from our final report.




Page 29                                               Inspector Comments
Appendix A
SCOPE AND     This inspection was conducted from July 1999 through January
METHODOLOGY   2001 at Department of Energy (DOE) laboratories, including
              National Nuclear Security Administration (NNSA) laboratories,
              that we identified as conducting experiments involving biological
              select agents and select agent materials. These laboratories
              included Brookhaven National Laboratory, Idaho National
              Engineering and Environmental Laboratory, Lawrence Berkeley
              National Laboratory, Lawrence Livermore National Laboratory,
              Oak Ridge National Laboratory, Sandia National Laboratories-
              New Mexico, and Sandia National Laboratories-California.

              To accomplish our inspection objectives, we conducted a survey of
              selected Department Operations Offices to identify the extent of their
              activities involving biological select agents and select agent materials
              and conducted on-site reviews at the Department laboratories listed
              above. We interviewed Department Headquarters officials in the
              Office of the Deputy Administrator for Nuclear Nonproliferation; the
              Office of Environment, Safety and Health; the Office of Science; the
              Office of Environmental Management; the Office of the Deputy
              Administrator for Defense Programs; the then Office of Field
              Management; the Office of Intelligence; and the Office of General
              Counsel. We also interviewed contractor personnel at each of the
              Department’s laboratories listed above. In addition, we interviewed
              officials at the Centers for Disease Control and Prevention, the U.S.
              Army Edgewood Chemical Biological Center, and the U.S. Army
              Medical Research Institute of Infectious Diseases. We also reviewed
              pertinent Federal, Department, and contractor environment, safety and
              health rules and regulations implemented at each site, and compared
              the criteria with the rules and regulations being implemented at
              facilities outside of the Department.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




 Page 30                                              Scope and Methodology
                                                                         IG Report No. DOE/IG-0492

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we nay
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
